Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   TEXAS’ EXPERIENCE REBATE
  PROVISION IN MANAGED CARE
CONTRACTS WERE ADMINISTERED IN
ACCORDANCE WITH FEDERAL, STATE,
AND CONTRACTUAL REQUIREMENTS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler
                                               Regional Inspector General

                                                      December 2013
                                                      A-06-13-00002
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
December 17, 2013



Report Number: A-06-13-00002

Mr. Kyle Janek
Executive Director
Texas Health and Human Services Commission
P.O. Box 13247
Austin, TX 78711

Dear Mr. Janek:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Texas’ Experience Rebate Provision in Managed Care
Contracts Were Administered in Accordance With Federal, State, and Contractual
Requirements. We will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-06-13-00002 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Kyle Janek

HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
                                          INTRODUCTION

    Texas calculated managed care organization profit-sharing rebates and refunded the
    Federal portion of those rebates in accordance with applicable Federal, State, and
    contractual requirements.

WHY WE DID THIS REVIEW

Prior Office of Inspector General reviews 1 found that some States did not comply with managed
care contract settlement requirements, which resulted in refunds owed to the Federal
Government. The Texas Health and Human Services Commission (State agency) contracts with
managed care organizations (MCOs) to provide medical services to beneficiaries enrolled in the
Medicaid program and the Children’s Health Insurance Program (CHIP) for a fixed monthly
capitation payment. In Texas, the State agency’s contracts with MCOs include a contract
settlement requirement in the form of a profit-sharing arrangement, known as an experience
rebate. The MCOs refund to the State agency experience rebates owed to it, and the State
agency returns to the Federal Government the Federal share of those rebates.

OBJECTIVE

Our objective was to determine whether the State agency calculated MCO experience rebates
and refunded the Federal portion of those rebates to the Centers for Medicare & Medicaid
Services (CMS) in accordance with applicable Federal, State, and contractual requirements.

BACKGROUND

Medicaid Program and Children’s Health Insurance Program

Under Title XIX of the Social Security Act (the Act), the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Balanced Budget Act
of 1997 expanded the Act and created Title XXI, CHIP, to provide free or affordable health care
coverage to targeted low-income children. The Act defines targeted low-income children as
those not found to be eligible for Medicaid or covered under a group plan or other health
insurance coverage (§ 2110(b)(1)(C)).

The Federal and State Governments jointly fund and administer both Medicaid and CHIP. At the
Federal level, CMS administers both programs. Although the State has considerable flexibility
in designing and operating both programs, it must comply with applicable Federal requirements.
In Texas, the State agency administers both Medicaid and CHIP.




1
  Review of Florida’s Children’s Health Insurance Program Experience Adjustment and Refund Submission
Reports, A-04-10-06123, issued June 29, 2011 and Pennsylvania Did Not Refund the Full Federal Share of
Recouped Excess Capitation Payments From the Medicaid Behavioral HealthChoices Program, A-03-10-00204,
issued June 18, 2012.


Texas’ Experience Rebate Provision in Managed Care Contracts (A-06-13-00002)                             1
The Federal Government pays a share of a State’s expenditures for medical assistance under the
Medicaid State plan (the Act § 1903(a)). Federal medical assistance percentages (FMAPs) are
used to determine the amount of Federal financial participation (FFP), or matching funds, for
State expenditures on Medicaid and other social services. For Medicaid, section 1905(b) of the
Act specifies the formula for calculating the FMAPs. The Federal Government uses an
enhanced, or higher, FMAP to determine the amount of FFP for State CHIP expenditures. The
formula for calculating the CHIP FMAP is found under section 2105(b) of the Act. The State
uses the applicable FMAP to determine the Federal share of the net amount of any recoveries
(e.g., experience rebates) it makes (the Act § 1903(d)(3)(A)). State agencies report their
expenditures to CMS for Federal reimbursement and credit CMS with any refunds due on the
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64
Report), for Medicaid, and the Quarterly CHIP Expenditures Report (CMS-21 Report), for
CHIP.

Texas’ Medicaid Managed Care Program

Section 1932(a) of the Act allows States to implement managed care delivery systems. Managed
care is a system for delivering health care that is intended to improve the quality of care and to
control costs. To these ends, the State agency pays MCOs a fixed monthly capitation payment
for each enrollee to provide covered services. This approach is different from a fee-for-service
system, in which the State agency pays providers for each service they furnish.

Experience Rebate Provision of Contracts With Managed Care Organizations

To ensure that the capitation rates paid are not excessive compared with MCO costs, the State
agency includes a settlement requirement in its managed care contracts. The settlement
requirement is in the form of a profit-sharing arrangement known as an experience rebate.
MCO’s pay this rebate to the State agency when their pretax income exceeds 3 percent of
revenue for the contract period.

The pretax income used to determine if an experience rebate is owed may be increased by an
administrative expense amount. 2 Additionally, the State agency allows an MCO to carry
forward prior-year losses to reduce the pretax income used to determine if an experience rebate
is owed. After the contract period, the State agency calculates the experience rebates MCOs owe
based on Financial Statistical Reports (FSRs) MCOs submit to the State agency annually. 3

MCOs submit a check directly to the State agency for the experience rebate due for the contract
period. The State agency returns to the Federal Government the Federal share of the amount it
has recovered through a credit on the required CMS form, either the CMS-64 Report, the CMS-
21 Report, or both.

2
 If an MCO’s administrative expense amount is more than the State agency’s established maximum administrative
expense amount, the pretax income will be increased by the difference between those amounts.
3
 FSRs include information on membership, revenues, medical and administrative expenses, and pretax income by
service area and program. The State agency contracts with audit contractors to conduct Performance and
Compliance Audits of the MCOs to ensure the accuracy of the annual FSRs that MCOs submit to the State agency.


Texas’ Experience Rebate Provision in Managed Care Contracts (A-06-13-00002)                                    2
HOW WE CONDUCTED THIS REVIEW

Our audit covered the State fiscal year 2010 and 2011 contract periods (September 1, 2009,
through August 31, 2011). During that period, 16 MCOs submitted a total of $227,223,979 in
experience rebates to the State agency. We selected one MCO to review that had a median
experience rebate owed to the State agency for both contract periods to verify that the State
agency adequately administered and monitored the experience rebate provision of its managed
care contracts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                        RESULTS OF AUDIT

The State agency calculated the experience rebates paid by the selected MCO and refunded the
Federal portion of those rebates to CMS in accordance with applicable Federal, State, and
contractual requirements.




Texas’ Experience Rebate Provision in Managed Care Contracts (A-06-13-00002)                    3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the State fiscal year 2010 and 2011 contract periods (September 1, 2009,
through August 31, 2011). During that period, 16 MCOs submitted a total of $227,223,979 in
experience rebates to the State agency. We selected one MCO to review that had a median
experience rebate owed to the State agency for both contract periods to verify that the State
agency adequately administered and monitored the experience rebate provision of its managed
care contracts.

Our objective did not require an understanding or assessment of the complete internal control
structures of the State agency. Rather, we limited our review to those controls over monitoring
the implementation of the experience rebate provision of the contracts.

We performed our audit work from January through August 2013.

METHODLOGY

To accomplish our objective, we:

        •   reviewed applicable Federal and State laws, regulations, and guidance;

        •   interviewed State agency officials to obtain an understanding of the experience rebate
            provision included in its managed care contracts;

        •   reviewed the experience rebate provision of the State agency’s managed care
            contracts to determine the MCO reporting requirements and the methodology for
            calculating experience rebates owed to the State agency;

        •   reviewed MCO experience rebate amounts owed to the State agency and selected one
            MCO to review that had a median experience rebate owed for both contract periods to
            determine whether the State agency adequately administered and monitored the
            experience rebate provision of its managed care contracts;

        •   reviewed the annual FSRs the MCO submitted to the State agency 4 and the State
            agency’s experience rebate calculation for both contract periods;

        •   recalculated and validated the experience rebate owed to the State agency for both
            contract periods;

        •   determined whether funds returned to the State agency were properly credited on the
            required CMS form; and

4
 We did not determine whether the information the MCO reported on the FSR was accurate and complete.
Subsequently, we relied on the information obtained from the State agency to conduct our audit.


Texas’ Experience Rebate Provision in Managed Care Contracts (A-06-13-00002)                           4
        •   discussed the results of this audit with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Texas’ Experience Rebate Provision in Managed Care Contracts (A-06-13-00002)                   5
